OFFICE OF GENERAL COUNSEL
JASON R. GABRIEL* City OF JACKSONVILLE

GENERAL COUNSEL

Trisa D. BOWLES
KAREN M. CHASTAIN
DERREL Q. CHATMON
ARIEL P. COOK
JULIA B, Davis
STEPHEN M, DURDEN
SHANNON K. ELLER
CRAIG D. FEISE
Guepert L.
LORE L. FRENCH
CristoPHer GARRETT
KYLE GaVIN

MARY MARGARET GIANNINI

BretT G, MERENESS
Davip M. Micut

JAMES R. MCCAIN, JR.
WENDY L. MUMMAW

KELLY H. PAPA

TIFFINY DOUGLAS PINKSTAFF
JON R. PHILLIPS

CHERRY SHAW POLLOCK
STEPHEN J, POWELL

ASHLEY B, RUTHERFORD
JOHN C. SAWYER, JR.
MARGARET M, SIDMAN
Mary E. STAFFOPOULOS

 

 
  

City HALL, ST. JAMES BUILDING
117 WEST DUVAL STREET, SUITE 480
JACKSONVILLE, FLORIDA 32202

SEAN B, GRANAT

JASON R. TEAL
SUSAN C. GRANDIN ADINA TEODORESCU
SONYA HARRELL KEALEY WesT
KATY A. HARRIS STANLEY M. WESTON
MIRIAM R. HILL GaBy YOUNG

Lawsikia J. Hopces
PAIGE HOBBS JOHNSTON

*Boarb CERTIFIED City, COUNTY
RITA M. Mairs

AND LOCAL GOVERNMENT LAW

February 5, 2020

VIA ELECTRONIC FILING AND FEDERAL EXPRESS
Scott S. Harris

Clerk of the Court

Supreme Court of the United States

Office of the Clerk

1 First Street, N.E.

Washington, D.C. 20543

Re: Matthew Reid Hinson v. R.A. Bias, et al.
No. 19-872

Dear Mr. Harris:

I, on behalf of the City of Jacksonville, Florida (“City”), represent Respondents, Officers R.A.
Bias, et al., with regard to the above referenced matter. The Petition for Writ of Certiorari in the above
entitled case was filed on January 10, 2020, and Respondents filed a Waiver of their right to respond on
January 21, 2020. However, the Court requested a Response to be filed on or before March 2, 2020.
Pursuant to Rule 30.4 of the United State Supreme Court, the City requests a thirty (30) day extension of
time to file a brief in opposition to the Petition for Writ of Certiorari, up to and including April 2, 2020.

I am counsel of record in the above referenced matter, and throughout the month of February
2020 I have numerous deadlines in both state and federal court, including discovery, trial deadlines and
state and federal court appellate briefing deadlines. I also have an upcoming pre-planned vacation in
March 2020 which will put much of this month’s work on a tighter schedule. In addition, the City is also
seeking amicus curiae assistance in this case, as well as a printing service to assist with the brief in
opposition to ensure the City can, within its resources, comply with all of the Court’s requirements.

Accordingly, the City requests a thirty (30) day extension of time, until April 2, 2020, to file a

brief in opposition to the Petition for Writ of Certiorari.

Office Telephone
(904) 255-5100

Writer’s Direct Line
(904) 255-5052

Writer’s E-Mail Address
CFeiser@coj.net

Office Web Site
GeneralCounsel.coj.com

Facsimile
(904) 255-5120
February 5, 2020
Page 2
We thank you for your time and attention to the foregoing.
Respectfully submitted,

JE

Craig D. Feiser
Assistant General Counsel
